        AUDIT OF THE
TRAVEL CARD PROGRAM

National Transportation Safety Board

    Report Number: FI-2007-003

   Date Issued: November 1, 2006
U.S. Department of                                                                   Office of Inspector General
Transportation                                                                       Washington, D.C. 20590
Office of the Secretary
of Transportation


November 1, 2006

The Honorable Mark V. Rosenker
Chairman
National Transportation Safety Board
490 L’Enfant Plaza, SW
Washington, DC 20594

Dear Chairman Rosenker:

This report presents the results of our audit of the National Transportation Safety
Board’s (NTSB) Travel Card Program. As reported by the Government
Accountability Office, proper use of Government-issued travel cards and timely
payment of credit card charges are Governmentwide concerns. The Travel Card
Program is highly visible, and abuses of travel card privileges by a small minority
of employees can reflect negatively on the entire organization.

NTSB incurs about $2 million in travel costs annually, most of which are
associated with accident investigations.        NTSB investigates more than
2,000 accidents each year in all modes of transportation, including aviation,
highway, marine, rail, and pipeline. According to NTSB officials, no major
accidents occurred during the period of our audit—July 1, 2004, through June 30,
2005.

In addition to supporting accident investigations, travel funds are used to support
advocacy-related functions conducted by Board members and NTSB officials and
administrative activities such as training. Each office director determines which
employees in his or her organization will receive travel cards and is responsible
for managing all travel funds. Each Board member is also provided with
designated travel funds for the use of nonaccident travel by his or her immediate
office. 1 Section 9 of Public Law 106-424, the National Transportation Safety
Board Amendments Act of 2000, requires NTSB to provide an annual report to
Congress detailing the nonaccident-related travel of each Board member.

1
    For fiscal year 2005, the travel budget was $52,707 for the Chairman, $26,353 for the Vice Chairman, and
    $21,083 for other Board members.
                                                                                                             2


NTSB has been using Citibank travel card services since 2000 and has cross-
servicing agreements to use the Department of the Interior’s National Business
Center financial and travel management systems to process travel reimbursements
to employees. As of the end of our audit period, 355 of the 432 NTSB employees
were provided with individual travel cards. In addition, 25 employees were given
centrally billed travel cards, which were used to reserve and charge transportation
costs for invitational travelers 2 and NTSB employees whose applications for
individually billed cards were pending.

Between July 1, 2004, and June 30, 2005, 293 individual NTSB cardholders used
Government-issued travel cards for total expenditures of about $1.8 million (see
Table 1).

                      Table 1. NTSB Travel Card Transactions
                             July 1, 2004–June 30, 2005
     Billing Type            Number of            Cardholders           Number of              Value of
                          Cardholders as            Making             Transactions          Transactions
                          of June 30, 2005        Transactions            Made                (rounded)

    Individual                    355                  293                12,921            $1,800,000
    Central                         25                  10                    112               $30,000


Our objectives were to determine whether (1) internal controls are adequate to
safeguard against unauthorized card use for other than official Government
business, (2) NTSB employees used travel cards for official Government business
and Board members’ travel was properly reported to Congress, and (3) delinquent
travel charge accounts are identified and monitored sufficiently to ensure timely
payment resolution. We conducted this performance audit in accordance with
Generally Accepted Government Auditing Standards prescribed by the
Comptroller General of the United States and performed such tests as we
considered necessary to detect fraud, waste, and abuse. Our scope and
methodology are described in more detail in Enclosure 1.

RESULTS IN BRIEF
NTSB’s internal controls are generally adequate to safeguard against unauthorized
use of Government travel cards and to prevent delinquencies. Our detailed



2
    Invitational travelers are non-NTSB Training Center course instructors, interviewees for NTSB job openings,
    witnesses for public hearings, and those who serve NTSB without pay or at $1 a year.
                                                                                                                        3


testing 3 did not identify any improper use of the cards or delinquent card accounts
between July 1, 2004, and June 30, 2005. 4

We did, however, identify opportunities to strengthen controls in several areas.
These include ensuring that NTSB maintains an accurate roster of travel
cardholders, closing separated employees’ accounts in a timely manner, reducing
travel card dollar limits for staff who rarely travel, documenting management
overrides of system controls designed to prevent the use of travel cards for certain
activities, and tracking cardholders’ acknowledgment of responsibility for proper
use of Government-issued cards. We are making recommendations to strengthen
internal controls in these areas.

During FY 2005, there were five members serving on the NTSB Board, including
the Chairman and Vice Chairman. On October 27, 2005, NTSB properly reported
to Congress the Board members’ travel not related to accident investigations,
except for one member. The report omitted the last three trips the member made
before his resignation on August 1, 2005.

According to the NTSB Chief Financial Officer (CFO), his office was told that
this member was leaving on July 11, 2005. Accordingly, the office only included
the member’s travel between October 1, 2004 and July 11, 2005 in the report
submitted to Congress. The member made three trips after July 11, 2005 before
his resignation, which were all recorded in the Travel Manager system. NTSB
plans to include these additional trips in the report to Congress on fiscal year
(FY) 2006 Board member travel. We are recommending that NTSB submit a
revised report to Congress and prepare future reports based on all travel recorded
in the Travel Manager system for the whole fiscal year, regardless of when
members are separated from the Board.

FINDINGS

Controls To Prevent Unauthorized Use of Travel Cards Are Generally
Adequate but Could Be Improved
While NTSB internal controls are generally adequate, they could be strengthened
in the following areas:



3
    We judgmentally selected 8 NTSB employees and reviewed all 36 travel vouchers submitted by these employees
    during our audit period. In addition, we selected a statistical sample of 68 transactions from the Citibank credit card
    usage reports for review.
4
    According to revised Appendix B of Office of Management and Budget Circular A-123, delinquency is defined as a
    charge card account balance that is unpaid for more than 61 days past the statement date; we found none in this
    category. The total amount of bills that were 30 days or more past due ranged from a high of about $3,700 during
    July 2004 to a low of about $400 during January 2005.
                                                                                                                    4


• NTSB did not independently validate Citibank’s list of active travel card
  accounts. The Agency received a monthly listing of active NTSB cardholder
  accounts from Citibank. Because NTSB did not keep a listing of authorized
  travel cardholders, it could not cross-check the accuracy of the account listing.
  As a result, NTSB had no assurance that all active accounts belonged to
  authorized cardholders. NTSB officials have agreed to develop a list of
  employees with an authorized travel card account and periodically reconcile
  that list with Citibank’s list of active travel card accounts.

• Closing separated employees’ accounts took too long. Upon separation
  from the Agency, cardholders are required to turn in their Government travel
  cards to their office directors. The Human Resources Division is required to
  notify the Travel Card Program coordinator when a cardholder separates from
  the Agency so that the program coordinator can notify Citibank to close that
  account immediately. Twenty-two cardholders were separated from NTSB
  during our audit period, nine of whom did not have their accounts closed by
  Citibank until after their separation—in one case 36 days after separation (see
  Enclosure 2). According to an NTSB official, this happened because the
  program coordinator had no control over when the notification from the
  Human Resources Division was sent, and the notifications were not always
  sent promptly. Until an account is closed, however, a cardholder can still
  make purchases over the telephone or online with the account number and an
  active expiration date. In our review, however, no purchases were made by
  the nine cardholders after their separation.

• Travel card dollar limits were higher than needed. Both the centrally
  billed and individually billed cards had high dollar limits. Specifically, the
  total monthly dollar limit for the 25 centrally billed cards was about
  $1.4 million as of June 30, 2005. 5 However, NTSB’s centrally billed
  transactions totaled only about $30,000 for the entire year of our audit, with
  the highest monthly total being about $6,500. After bringing this information
  to NTSB officials’ attention, they reviewed the card limits and reduced the
  total monthly limit for the centrally billed cards from $1.4 million to about
  $57,500 as of April 24, 2006—a 96-percent reduction.

      As for the individually billed cards, 11 cardholders had administrative
      positions and did not travel at all during our audit period. 6 For 10 of these 11,
      the travel card dollar limit was $5,000. According to NTSB officials, they
      plan to review all individually billed card limits and determine if any should
      be reduced. Unnecessarily high dollar limits needlessly expose NTSB and its

5
    Twelve of these 25 had monthly limits of $100,000 each.
6
    In a follow-up review, we found that none of these administrative staff traveled between July 1, 2005, and May 31,
    2006, either.
                                                                                  5


   employees to greater losses if the cards are lost, stolen, or used for other than
   official Government business.

• NTSB did not keep records of management overrides of system controls
  designed to block inappropriate purchases. NTSB had established blocked
  merchant category codes to prevent certain types of inappropriate purchases,
  such as those from jewelry stores, gambling facilities, or theaters. While most
  of the travel card transactions we reviewed were for travel-related
  expenditures (see Enclosure 3), 32 transactions were made for blocked
  purchase items. The staff of the CFO approved employee requests to make
  these purchases and notified Citibank to override system controls to allow
  these transactions to go through. For example, in April 2005, the program
  coordinator lifted the blocked merchant category code for six charges for
  $2,200 at the Marine Engineers’ Beneficial Association Engineering School.
  This Association is a training organization that also provides housing. The
  blocked merchant category code was lifted in order to allow lodging charges to
  go through. Other examples included lifting blocked merchant category codes
  for business services such as photocopying, packaging, faxing, and internet
  access.

   While these override transactions did not appear excessive and we
   acknowledge that some occasions justify overrides of this system control, we
   have two concerns with the current process. First, we found no guidance
   provided to CFO staff to ensure consistent decisionmaking for approving
   override requests. Second, no documentation could be found detailing
   employee requests, reasons for system overrides, or responses from approving
   officials. According to an NTSB official, the Agency does not require a
   written justification for such overrides due to the limited number of such
   requests. While the amounts were small, totaling about $4,900 during our
   audit period (see Table 2), a record justifying the override is needed for proper
   accountability. Incorporating this control into normal business operations is
   important to NTSB because its travel costs and the need for system overrides
   could increase significantly whenever major accidents occur.
                                                                                                                  6



         Table 2. Breakdown of Travel Card Purchases Made
                       in Blocked Categories,
                     July 1, 2004 – June 30, 2005
         Transaction Typea                         Number of                            Total Value
                                                  Transactions
    Schools, trade, vocational                          6                                    $2,200
    Schools and educational
    services                                               2                                   1,113
    Business services, other                              15                                     726
    Equipment rentals,
    furniture                                               2                                    258
    Miscellaneous and
    specialty                                               3                                    233
    Manual cash
    disbursements                                           1                                    200
    Automobile, truck dealers,
    sales                                                   2                                    180
    Equipment, furniture
    stores                                                 1                                     13
     Total                                                32                                 $4,923
   a These blocked transaction types are not all-inclusive; they represent only the ones authorized to be overridden
     during our audit period.


• NTSB could not locate acknowledgment forms signed by all employees
  with travel cards.         Travel cardholders are required to sign an
  acknowledgment form certifying that they have read, understood, and will
  abide by the policies and procedures issued by NTSB and Citibank. By
  signing the acknowledgment form, the cardholder also agrees that the
  unauthorized use of the travel card or the failure to pay charges in accordance
  with the terms of the program may result in disciplinary action. For the
  25 travel cardholders for whom we requested acknowledgment forms, NTSB
  could not locate the signed form for 13 cardholders.

   NTSB officials did not realize that these forms were missing until they
   received our request. The former program coordinator had left the Agency,
   and other NTSB officials were unable to locate the acknowledgment forms.
   The forms that were missing have been replaced with newly signed forms.
   NTSB should pay closer attention to recordkeeping for the acknowledgment
   forms because they are evidence of a cardholder’s accountability should the
   cardholder misuse the travel card.
                                                                                  7


Travel Cards Were Used for Official Business Only, but the Report on
Board Members’ Travel Was Incomplete
Our detailed testing of travel card transactions found that they were used only for
official Government business, supported with original receipts, and properly
reviewed and approved by management in the automated Travel Manager system.
In addition, the Office of CFO reviewed the monthly travel card transaction
reports from Citibank for atypical transactions, such as cash advances without
associated travel activity, nontravel expenses, and lodging and restaurant expenses
within the commuting area.

The FY 2005 report submitted to Congress for Board members’ travel costs was
incomplete. In October 2005, NTSB submitted the report to the required
congressional committees for all travel costs for four of the five Board members.
However, for one Board member, $1,210 in costs for three nonaccident-related
trips was not included, as shown in Table 3. These additional trips did not,
however, result in travel costs exceeding the budget that was submitted for
congressional committees review in November 2004.

           Table 3. FY 2005 Board Members’ Travel Costs
   Board Member           Travel Cost           Travel Cost         Travel Cost
                            Budget               Reported          Not Reported
 Chairman                   $52,707               $16,854                 $0
 Vice Chairman               26,353                10,752                  0
 Board Member 3              21,083                11,686                  0
 Board Member 4              21,083                 2,247                  0
 Board Member 5              21,083                19,870              1,210

According to the CFO, his office was told that this member was leaving on
July 11, 2005. In fact, he resigned from the Board on August 1, 2005.
Accordingly, the office only included the member’s travel between October 1,
2004, and July 11, 2005, in the report to Congress, even though three trips taken
after July 11 were recorded in the Travel Manager system. NTSB plans to include
these additional trips in its report to Congress for Board members’ FY 2006 travel.
We believe, and are recommending, that a more appropriate action would be for
NTSB to submit a revised report for Board members’ FY 2005 travel costs to
Congress.
                                                                                8




RECOMMENDATIONS
We recommend that the Chairman, National Transportation Safety Board, direct
the Chief Financial Officer to:

1. Direct the program coordinator to develop a list of authorized travel
   cardholders and periodically reconcile that list with Citibank’s list of active
   travel card accounts.

2. Require office directors to notify the Travel Card Program coordinator of the
   separation of travel cardholders at least by the date of separation to ensure
   timely closeout of their accounts at Citibank.

3. Reduce dollar limits on cards of individuals who travel infrequently.

4. Develop guidance for granting employee requests to override system controls
   for blocked purchases and maintain a record of approved requests for system
   overrides.

5. Direct the program coordinator to periodically inventory acknowledgment
   forms signed by travel cardholders.

6. Ensure that all Board members’ travel costs reported in the Travel Manager
   system for the entire fiscal year are included in the annual report to
   congressional committees, regardless of when members are separated from the
   Board.

7. Submit a revised report to congressional committees on Board members’
   FY 2005 travel costs.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
A draft of this report was provided to NTSB for comments on September 20,
2006. The NTSB Acting Chairman responded on September 25, 2006, and
concurred with six of seven recommendations (see Enclosure 4).

Specific actions taken or planned by NTSB on our recommendations are
summarized below:

Recommendation 1: NTSB concurred. Beginning in FY 2007, the program
coordinator plans to reconcile the monthly Citibank listing with any activity
                                                                                  9


during the period to ensure that additions, separations, or account changes to the
listing are accurately updated.

OIG Response: NTSB’s actions meet the intent of our recommendation.

Recommendation 2: NTSB concurred with an alternative course of action. All
employees who separate from the Agency have to go through a clearance process,
which includes clearance from the Office of CFO. This office has implemented a
procedural change whereby CFO employees notify the Travel Card program
coordinator by e-mail that an employee is leaving the Agency. The program
coordinator then notifies Citibank to close the employee’s account.

OIG Response: NTSB’s alternative corrective actions meet the intent of our
recommendation.

Recommendation 3: NTSB concurred. Employees who travel infrequently have
their credit limits set to one dollar.

OIG Response: NTSB’s actions meet the intent of our recommendation.

Recommendation 4: NTSB did not concur. NTSB noted that the override
transactions represented a small number of the total number of transactions and
that some of the dollar amounts were small. NTSB also stated that the risk
associated with this issue does not warrant additional compensating controls
because NTSB does not bear any financial responsibility for the individually billed
travel card charges.

OIG Response: We agree that the number of override transactions was small, but
there is no assurance the numbers will be small every year. NTSB travel costs and
the need for system override could increase significantly whenever major
accidents occur. As for the small dollar amounts, NTSB can set a minimum dollar
threshold above which written justification for approving the override will be kept.
The blocked merchant category codes were implemented to prevent employees
from using Government-issued cards to make purchases that would embarrass the
Agency, even if NTSB bears no financial responsibility. Accordingly, we believe
NTSB should develop a policy requiring written justification and a record of who
approved the override when a blocked merchant category code is removed for
purchases above the minimum dollar threshold.

Recommendation 5: NTSB concurred. The procedure is already operational.
The records are reviewed at least annually to ensure their completeness.

OIG Response: NTSB’s actions meet the intent of our recommendation.
                                                                                10


Recommendation 6: NTSB concurred. Beginning with the submission of the
report to Congress for Board members’ FY 2006 travel costs, NTSB will use
information from the Travel Manager system to prepare the report.

OIG Response: NTSB’s actions meet the intent of our recommendation.

Recommendation 7: NTSB concurred. NTSB plans to include the three missing
trips from the one Member’s travel costs in the FY 2006 travel cost report.

OIG Response: NTSB’s alternative corrective action meets the intent of our
recommendation. On October 31, 2006, NTSB management provided us with a
draft copy of the report to be submitted to Congress for this particular member’s
travel costs. The full report is for all Board members’ FY 2006 travel. However,
it will also include all trips made by this particular member during FY 2005 with a
full disclosure of the three trips omitted from last year’s submission.

Actions taken or planned by NTSB are responsive except for recommendation 4.
We request that NTSB re-evaluate its response. We would appreciate receiving
your written response to recommendation 4 within 30 days.

We appreciate the courtesies and cooperation of NTSB representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-1496 or Gary B. Fishbein, Project Manager, at (202) 366-9708.

Sincerely,


Rebecca C. Leng
Assistant Inspector General
 for Financial and Information Technology Audits

Enclosures (5)
                                                                                                       Enclosure 1



SCOPE AND METHODOLOGY
This audit focused on travel card transactions between July 1, 2004, and June 30,
2005, which were valued at about $1.8 million. The majority of the transactions
were made by the Office of Aviation Safety; Office of Highway Safety; and Office
of Railroad, Pipeline and Hazardous Materials Safety. The total travel costs for
these three offices were about $1.3 million. We also reviewed the travel of Board
members during FY 2005 and individually billed travel cardholders who had
administrative positions through May 31, 2006.
We reviewed Citibank’s account listing reports dated June 15, 2004, and June 15,
2005. As of June 2005, there were 355 individually billed cardholders and
25 centrally billed cardholders.
We selected both judgmental and statistical samples of Citibank cardholders’
transactions. We judgmentally selected 10 individually billed travel cardholders.
However, the Travel Manager system contains only travel vouchers processed
between October 1, 2004, and September 30, 2005. 7 As a result, we were able to
review only 8 individually billed travel cardholders, with a total of 36 travel
vouchers. We reviewed the appropriateness of, and support for, expenses claimed
on each voucher. For the statistical sample, we compared 68 Citibank transactions
with the authorized expenses on the travel vouchers in the Travel Manager system.
During the audit, we became aware of the requirement that NTSB provide an
annual report to Congress detailing the nonaccident-related travel of each Board
member. As a result, we expanded our scope to include the reconciliation between
each Board member’s budget and the nonaccident-related travel costs reported in
the Travel Manager system for FY 2005.
We interviewed program officials in the Office of CFO to obtain an understanding
of NTSB’s travel card policies and procedures and related internal controls. We
also interviewed NTSB administration officials in the Office of Aviation Safety;
Office of Railroad, Pipeline and Hazardous Materials Safety; and Office of
Research and Engineering, to determine whether the travel vouchers with
supporting documentation were maintained by the offices, as required by Office of
CFO travel bulletin. In addition, we contacted appropriate officials at Citibank to
obtain credit card usage information.
We performed our audit work from September 2005 through August 2006 at
NTSB Headquarters in Washington, DC. The audit was conducted in accordance
with Generally Accepted Government Auditing Standards prescribed by the
Comptroller General of the United States and included such tests as we considered
necessary to provide reasonable assurance of detecting abuse or illegal acts.


7
    At the end of each fiscal year, the travel vouchers from the previous fiscal year are archived at the Department of the
    Interior.
                                                                                       Enclosure 2



NUMBER OF DAYS ELAPSED BETWEEN EMPLOYEE
SEPARATION AND CLOSING OF TRAVEL CARD ACCOUNTS

 Separated                Date               Date Citibank           Number of Days Between
   NTSB                 Separated             Closed the             Date Separated and Date
 Employeea             From NTSB               Account                 Account Was Closed
Employee A               04/30/05               03/22/05                     -39 days
Employee B               10/30/04               10/06/04                     -24 days
Employee C               05/06/05               04/15/05                     -21 days
Employee D               01/03/05               12/20/04                     -14 days
Employee E               11/27/04               11/19/04                      -8 days
Employee F               05/28/05               05/20/05                      -8 days
Employee G               04/02/05               03/29/05                      -4 days
Employee H               07/01/05               06/27/05                      -4 days
Employee I               02/19/05               02/17/05                      -2 days
Employee J               08/07/04               08/06/04                      -1 days
Employee K               10/04/04               10/04/04                       0 days
Employee L               07/01/05               07/01/05                       0 days
Employee M               02/22/05               02/23/05                       1 day
Employee N               05/14/05               05/17/05                       3 days
Employee O               07/31/04               08/04/04                       4 days
Employee P               09/18/04               09/23/04                       5 days
Employee Q               02/16/05               02/23/05                       7 days
Employee R               06/03/05               06/11/05                       8 days
Employee S               06/03/05               06/20/05                      17 days
Employee T               10/02/04               10/20/04                      18 days
Employee U               05/11/05               06/16/05                      36 days
a In addition to the employees in the table, another former employee separated from NTSB during our audit
  period. However, NTSB and Citibank could not provide the information needed to determine when this
  employee’s travel card account was closed.
                                                             Enclosure 3



CITIBANK TRANSACTIONS DURING AUDIT PERIOD

Transaction Description             Number of Transactions
Cash advance fees, disbursements,
and payments                                2,716
Airlines, railroad, and
other transportation                        2,649
Hotels, motels, and other
lodging facilities                          2,300
Travel agency fees                          1,949
Restaurants, bars                           1,323
Car rentals                                   845
Service stations                              576
Parking lots and garages                      482
Grocery and drug stores                        25
Internet and
telecommunications
services                                       16
Government services                            12
Schools, trade,
vocational, and
educational services                            8
Office supply and copy
reproduction                                    8
Duty-free stores                                3
Miscellaneous and
specialty retail stores                         3
Furniture and furniture
rental                                          3
Automobile, truck
dealers, sales, service                         2
Cable, satellite, and
other pay TV/radio                              1
 Total                                     12,921
                      Enclosure 4
                      Page 1 of 3


MANAGEMENT COMMENTS
Enclosure 4
Page 2 of 3
Enclosure 4
Page 3 of 3
                                               Enclosure 5



MAJOR CONTRIBUTORS TO THIS REPORT


  Name                      Title

  Gary B. Fishbein          Project Manager

  Clarence Fujimoto         Senior Auditor

  Petra Swartzlander        Statistician

  Michael P. Fruitman       Communications Adviser

  Kathleen Huycke           Editor
